No. 20-1459
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
PETITIONER
v.
JUSTIN EUGENE TAYLOR
.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via e-mail and first-class mail, postage
prepaid, this 7th day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,465 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on June 7, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 7, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1459
USA
JUSTIN EUGENE TAYLOR

FRANCES H. PRATT
ASSISTANT FEDERAL PUBLIC DEFENDER
1650 KING STREET
SUITE 500
ALEXANDRIA, VA 22314
703-600-0800
FRAN_PRATT@FD.ORG

